         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Follow-up on the Department of
Energy's Implementation of the
Advanced Batteries and Hybrid
Components Program Funded under
the American Recovery and
Reinvestment Act




OAS-RA-L-12-05                              July 2012
                                 Department of Energy
                                    Washington, DC 20585
                                          July 10, 2012


MEMORANDUM FOR THE DIRECTOR, NATIONAL ENERGY TECHNOLOGY
               LABORATORY



FROM:                    Joanne Hill, Director
                         Central Audits Division
                         Office of Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Follow-up on the Department of
                         Energy's Implementation of the Advanced Batteries and Hybrid
                         Components Program Funded under the American Recovery and
                         Reinvestment Act"

BACKGROUND

Under the American Recovery and Reinvestment Act of 2009, the Department of Energy's
Advanced Batteries and Hybrid Components Program (Advanced Batteries Program) received
almost $2 billion to support the construction of U.S. based battery and electric drive component
manufacturing plants. As of June 2012, the Advanced Batteries Program had awarded 30 grants
to for-profit manufacturers and had expended about $1.2 billion.

In April 2010, we issued our first report on the Advanced Batteries Program, Progress in
Implementing the Advanced Batteries and Hybrid Components Program under the American
Recovery and Reinvestment Act (OAS-RA-L-10-04). In short, we concluded that the Department
had made significant progress implementing the Advanced Batteries Program, including
developing a comprehensive monitoring system plan to reduce the financial, technical and
marketing risks associated with large-scale projects. Because of the importance of the Advanced
Batteries Program to stimulating the economy, creating jobs and establishing a U.S. capability to
manufacture advanced batteries, we initiated this follow-up audit to determine whether the
Department had managed the Advanced Batteries Program efficiently and effectively. During
the course of our review, we also evaluated circumstances related to an allegation received by the
Office of Inspector General that an employee of one recipient had unduly influenced
procurement decisions and violated conflict of interest provisions.

CONCLUSIONS AND OBSERVATIONS

Based on our test work, we were unable to substantiate the allegation related to a potential
conflict of interest. Our review, however, identified opportunities for the Department to improve
its administration of the Advanced Batteries Program. Specifically, the Department could:

    •   Better define regulations governing the retention of documentation supporting
        procurement decisions. Regulations currently require for-profit recipients to follow best
        commercial practices, but do not define such practices. One recipient in our sample had
        purchased about $24 million in equipment and services without adequately documenting
        purchasing decisions;

    •   Ensure recipients adequately safeguard equipment purchased with Federal funds. We
        were unable to locate equipment purchased by one recipient totaling about $500,000;
        and,

    •   Obtain and review required audit reports to ensure the sufficiency of internal controls
        and compliance with laws and regulations. Of 28 program recipients, 8 had not
        submitted required reports.

As outlined in the remainder of our report, we believe that action to address these issues will
enhance overall transparency and accountability.

                                            Procurement

The Department's financial assistance regulations applicable to purchases made by for-profit
grant recipients required the use of best commercial practices. However, the regulations neither
specified criteria defining "best commercial practices" nor described the sufficiency of
procurement documentation that recipients were required to maintain supporting that best
commercial practices were followed. We found that one recipient had not fully documented its
implementation of best commercial practices, including justification for selection decisions and
cost price analyses, for purchases totaling $24 million. Specifically, for 17 of 39 purchases we
reviewed, we found the recipient had not widely solicited bids and lacked sufficient
documentation to support its solicitation and selection decisions.

Although not fully documented, Department management told us that recipients had either
solicited bids and/or had valid reasons for not publically soliciting bids. For instance, officials
commented that the recipient in question chose sub-contractors who were either familiar with
ongoing projects or possessed unique knowledge of project specifications. While we
acknowledge that valid reasons may have existed, we are concerned that the lack of
documentation can potentially affect transparency and diminish oversight.

                                        Safeguarding Assets

While recipients were required to have property accountability systems in place, one of the three
recipients we reviewed had not maintained records detailing information such as the location of
equipment purchased with Recovery Act funds. In the absence of detailed inventory records, we
attempted to locate property using information contained in invoices. However, despite the
assistance of recipient officials familiar with the premises and knowledgeable about the
purchases made, we were unable to locate 20 of the 37 equipment items sampled. The missing
items were valued at approximately $500,000. Detailed records of equipment purchased with
Federal funds are important in the event of loss, damage or theft. Additionally, adequate
documentation protects the Department's financial interest in equipment purchased with Federal
funds, particularly in the event of recipient bankruptcy or default.


                                                  2
Department officials noted that our findings were inconsistent with the results of their own
equipment inventory monitoring. Specifically, the Department stated that it had tested inventory
at eight sites and reported locating all of the equipment sampled. While we did not validate the
accuracy of the Department's reported results, they appear to indicate that the issues we
identified may not be systemic.

                                       Audit Requirements

We also noted the Department had not obtained and reviewed all required audit reports. As of
January 2012, the Department had not received Fiscal Year (FY) 2010 audit reports from 8 of the
28 for-profit recipients required to submit annual audits by June 2011. Federal regulations
require for-profit financial assistance recipients to obtain an independent audit for each year they
expend $500,000 or more in Federal awards. Audits are designed to provide assurance that
internal controls are adequate and recipients have complied with applicable laws and regulations
and the terms and conditions of awards. Department officials informed us that they had followed
up with recipients on audit reports not yet submitted.

A prior Office of Inspector General report, Solar Technology Pathway Partnerships Cooperative
Agreements (OAS-M-11-02, March 2011), described the lack of guidance on reporting
requirements related to for-profit recipients and recommended the Department revise its
guidance. The Department recently issued guidance on audits of for-profit awardees, but the
requirements had not yet been fully implemented at the time of our review.

                                           Path Forward

Given the size of the program, we emphasize the importance of maintaining adequate
documentation to support all purchasing decisions and continuing to ensure assets purchased
with Federal funds are safeguarded. As noted above, the Department indicated that recent
actions had been taken to obtain required audit reports and clarify guidance related to those
reports.

SUGGESTED ACTIONS

To address the issues identified in this report and improve management of the Advanced
Batteries Program, we suggest that the Director for the Project Management Center at the
National Energy Technology Laboratory:

     1. Clarify documentation expectations for the use of best commercial procurement
        practices by recipients;

     2. Ensure that missing equipment is located and tracked for the one recipient identified in
        our review; and,

     3. Obtain all FY 2010 internal control and compliance audits in accordance with Federal
        regulations.




                                                 3
We appreciate the cooperation of the Department and its on-going efforts to ensure the Advanced
Batteries Program is managed efficiently and effectively. Because no recommendations are
being made in this report, a formal response is not required.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Acting Chief Financial Officer
    Chief of Staff




                                              4
                                                                                   Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department) has
managed the Advanced Batteries and Hybrid Components Program (Advanced Batteries
Program) efficiently and effectively.

SCOPE

The audit was performed between April 2011 and May 2012, at Department Headquarters in
Washington, DC, and the National Energy Technology Laboratory in Pittsburgh, PA, and
Morgantown, WV. In addition, we visited three financial assistance recipients, including A123
Systems, Inc. in Waltham, MA, Livonia, MI, and Romulus, MI; Delphi Automotive Systems,
LLC, in Kokomo, IN; and, Johnson Controls, Inc. in Milwaukee, WI, and Holland, MI.

METHODOLOGY

To accomplish the audit objective we:

     •   Obtained and reviewed relevant laws and regulations related to the implementation of
         the American Recovery and Reinvestment Act of 2009 (Recovery Act) and grants
         administration;

     •   Reviewed individual grant award files from the Department's Strategic Integrated
         Procurement Enterprise System;

     •   Interviewed project officers and contract specialists regarding grants made under the
         Department's Advanced Batteries Program;

     •   Reviewed subcontractor data for inclusion of Davis-Bacon Act wage requirements as
         prescribed by the Recovery Act;

     •   Interviewed officials of three financial assistance recipients, and analyzed financial
         transactions and implementation of financial assistance requirements as prescribed by
         the terms and conditions of the awards; and,

     •   Determined whether the Department obtained required annual audits of internal
         controls and compliance with laws and regulations.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for



                                                5
                                                                        Attachment 1 (continued)

our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and found the Department had not established performance measures
related to the Advanced Batteries Program. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We conducted an assessment of computer-processed data relevant to our audit
objective and found it to be reliable.

Management waived an exit conference.




                                                6
                                                                           Attachment 2


                                PRIOR REPORTS

• Audit Report on Progress in Implementing the Advanced Batteries and Hybrid
  Components Program under the American Recovery and Reinvestment Act
  (OAS-RA-L-10-04, April 2010). The audit found that the Department of Energy
  (Department) had made significant progress in implementing the Advanced Batteries and
  Hybrid Components Program. During the audit, nothing was noted to indicate that the
  Department had not followed its predetermined award process and selection criteria. In
  addition, a comprehensive monitoring plan was implemented, and if successful, should
  reduce the financial, technical and marketing risks associated with the projects.

• Audit Report on Solar Technology Pathway Partnerships Cooperative Agreements
  (OAS-M-11-02, March 2011). The audit noted that the Department had developed and
  implemented controls designed to ensure solar projects were awarded in compliance with
  applicable regulations and that the projects were making adequate technical progress.
  However, testing revealed the Department's financial monitoring of the $120 million
  expended for these projects was not always adequate. Specifically, the Department had
  neither ensured that recipients complied with audit requirements nor had it requested
  audits of costs incurred by recipients.




                                         7
                                                               IG Report No. OAS-RA-L-12-05

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

   Your comments would be appreciated and can be provided on the Customer Response Form.
